la

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA
CIRCUIT
No. 18-5107

MICHAEL A. WILLNER AND MARGUERITE
EVANS WILLNER,
PLAINTIFFS-APPELLANTS
v.
JAMES DIMON, INDIVIDUALLY, AS PRESIDENT
AND CEO OF JP MORGAN CHASE BANK, N.A.,
ET AJL, DEFENDANTS-APPELLEES

FILED ON: MARCH 1, 2019

Appeal from the United States District Court
for the District of Columbia
(No. l:15-cv-01840)

Before: TATEL and KATSAS, Circuit Judges, and
SENTELLE, Senior Circuit Judge.

2a
JUDGMENT
This case was considered on the record from
the United States District Court for the District of
Columbia and the briefs and arguments of the
parties. The Court has accorded the issues full
consideration and has determined that they do not
warrant a published opinion. See D.C. Cir. R. 36(d).
It is
ORDERED AND ADJUDGED that the
district court’s decision be affirmed for the reasons
set forth in the memorandum filed simultaneously
herewith.
Pursuant to Rule 36 of this Court, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after the disposition of any timely
petition for rehearing or petition for rehearing en
banc. See Fed R. App. P. 41(b); D.C. Cir. R. 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows
Deputy Clerk

3a

MEMORANDUM
The Willners appeal the district court’s
dismissal order. The district court did not err, and we
affirm.
Prior to this litigation, Michael A. Willner and
Marguerite Evans Willner (the “Willners”) filed a pro
se lawsuit in the Eastern District of Virginia
(“EDVA”) against a collection of banks, alleging
misconduct and seeking to prevent foreclosure on
their real property. The EDVA dismissed that case,
finding both that the Willners’ claims were
functionally against Washington Mutual Bank
(“WMB”)—a defunct bank with which the Willners
had refinanced their loan, and which was not a party
to the lawsuit—and thus subject to Financial
Institutions Reform, Recovery and Enforcement Act
of 1989 (“FIRREA”), which includes an exhaustion
requirement that the Willners failed to satisfy. The
Willners appealed that decision to the Fourth Circuit,
which affirmed the EDVA decision on the bases of
failure to exhaust administrative remedies and
failure to state a claim. In 2015, while their appeal
was pending, the Willners filed claims with the
Federal Deposit Insurance Corporation (“FDIC”),
which were disallowed as untimely.
On October 29, 2015, the Willners initiated the
instant litigation in the District Court for the District
of Columbia (“DDC”), with a six-count Complaint
against the Banks, claiming fraudulent concealment,

4a
seeking damages for said concealment and the
resulting unjust enrichment, and requesting
declaratory relief to stay foreclosure, deem the deed
of trust unenforceable, and grant quiet title
(collectively, the “property claims”). On May 22, 2017,
shortly after the Fourth Circuit affirmed the EDVA’s
dismissal order, the Willners amended their DDC
pleading to add three counts against the FDIC for
violations of due process, their Seventh Amendment
right to a jury trial, and their “constitutional right to
have their claims adjudicated by a federal court
pursuant to Article III of the U.S. Constitution” (the
“constitutional claims”). Amended Complaint
313-333.
On January 4, 2018, the DDC dismissed (1) the
property claims under Fed. R. Civ. P. 12(b)(1) for lack
of jurisdiction since the dispositive issues were
precluded by the Fourth Circuit decision, and (2) the
constitutional claims under Fed. R. Civ. P. 12(b)(6)
for failure to state a claim. See Willner v. Dimon, No.
CRC-15-cv-01840, 2018 WL 3067902 (D.D.C. Jan. 4,
2018). On February 15, 2018, the DDC denied the
Willners’ Motion to Alter or Amend Judgment.
This Court applies a de novo standard of
review for a district court’s issue preclusion
determination and its dismissal under Fed. R. Civ. P.
12(b)(1) for lack of subject matter jurisdiction. See,
e.g., GSS Grp. Ltd. v. Nat’l Port Auth. of Liberia, 822
F.3d 598, 604-05 (D.C. Cir. 2016). We also apply a de
novo standard of review for a district court’s
dismissal under Fed. R. Civ. P. 12(b)(6) for failure to

5a
state a claim. See, e.g., Moore v. Voider, 65 F.3d 189,
192 (D.C. Cir. 1995).
When assessing its own jurisdiction, the
Fourth Circuit held that judicial review under
FIRREA requires a claimant to first timely exhaust
administrative remedies with the FDIC. See Willner
v. Dimon, 849 F.3d 93, 102-03 (4th Cir. 2017)
(“Willner F) (citing 12 U.S.C. §§ 1821(d)(3)(B)(i),
1821(d)(6)—(7), 1821(d)(13)(D)). By the time the
EDVA litigation had commenced, six years had
passed since the Bar Date, and the Willners had yet
to file with the FDIC. The Fourth Circuit determined
that equitable tolling did not, and could not apply,
and therefore concluded that it lacked jurisdiction
over the Willners’ claims pursuant to FIRREA. See
Willner I, 849 F.3d at 112.
The Willners now urge this Court to relitigate
the issue of equitable tolling because the Fourth
Circuit, when assessing whether FIRREA’s
administrative claims process applied, found that all
claims were “functionally” against WMB. See Willner
I, 849 F.3d at 104—05. Given this legal conclusion, the
Willners argue that the EDVA and Fourth Circuit
decisions have no preclusive effect because those
courts
lacked jurisdiction under
FIRREA’s
mandatory venue provision, 12 U.S.C.
§ 1821(d)(6)(A), which confers jurisdiction only to the
DDC and the district court collocated with WMB’s
principal place of business, the Western District of
Washington. However, contrary to the Willners’
assertions, preclusive effect can arise from a

6a
judgment when the originating court may have
lacked subject matter jurisdiction. See Ins. Corp. of
Ireland v. Compagnie des Bauxites de Guinee, 456
U.S. 694, 702 n.9 (1982) (“A party that has had an
opportunity to litigate the question of subject-matter
jurisdiction may not, however, reopen that question
in a collateral attack upon an adverse judgment. It
has long been the rule that principles of res judicata
apply to jurisdictional determinations—both subject
matter and personal.”); Travelers Indent. Co. v.
Bailey, 557 U.S. 137, 152-54, 153 n.6 (2009).
Regardless, any Article III court “has
jurisdiction to determine its own jurisdiction.” See
United States v. United Mine Workers of Am., 330
U.S. 258, 292 n.57 (1947) (“[A]nd if it be contested
and on due hearing it is upheld, the decision
unreversed binds the parties as a thing adjudged. So
in the matter of federal jurisdiction, which is often a
close question, the federal court may either have to
determine the facts. . . or the law. . . .”) (internal
citations omitted). It is of no moment whether the
Fourth Circuit determined that it lacked subject
matter jurisdiction based on failure to exhaust
administrative remedies or based on a mandatory
venue provision. This Court has no appellate
authority over the Fourth Circuit, and thus, we
cannot second guess the analytical methodology of
our sister circuit. The Fourth Circuit necessarily
reviewed equitable tolling when assessing its
jurisdiction under FIRREA, and the Willners are
stuck with that result.

7a
Accordingly, the district court properly
assessed the elements of issue preclusion. Given the
Willners’ failure to timely file with the FDIC,
equitable tolling was necessary for any valid property
claim pursuant to FIRREA. That is precisely the
issue the Fourth Circuit necessarily resolved when
assessing its jurisdiction, and thus, relitigation of
that issue is precluded. Accord Martin u. Dep’t of
Justice, 488 F.3d 446, 454 (D.C. Cir. 2007).
The district court also lacked jurisdiction over
the Willners’ constitutional claims.
Section
1821(d)(6)(A) requires that all FIRREA claims must
be filed in district court within sixty days of either the
end of the 180-day window for the FDIC to determine
the claims, or the date the claimant receives notice of
a disallowance—whichever is earlier. 12 U.S.C. §
1821(d)(6)(A). Section 1821(d)(13)(D) makes clear
that this filing deadline is jurisdictional. Id. §
1821(d)(13)(D) (“Except as otherwise provided in this
subsection, no court shall have jurisdiction over ...
any claim relating to any act or omission of such
institution or the Corporation as receiver.”).
The Willners’ disallowance was issued on
September 2, 2015, so they had until November 2,
2015 to file their claims in district court. Although
the Willners filed a complaint on October 29, 2015, it
included only the property claims against the banks,
which arose from the Willners’ 2006 loan agreement
with WMB. The Willners did not file their
constitutional claims against the FDIC, which arose
from the FDIC’s September 2015 disallowance of the

8a
Willners’ claims, until May 22, 2017. They named the
FDIC as a defendant only “in its capacity as Receiver
of Washington Mutual Bank.” Because these two sets
of claims named different defendants and arose from
different
transactions
or
occurrences,
the
constitutional claims do not relate back to the
original filing date. See Fed. R. Civ. P. 15(c)(1)(B).
Therefore, they are jurisdictionally time-barred.
Because the district court lacked jurisdiction
over the constitutional claims, we do not reach the
question whether it correctly concluded that those
claims lack merit.
For the foregoing reasons, we affirm the
district court’s January 4, 2018 dismissal order.

9a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA
CIRCUIT
No. 18-5107

MICHAEL A. WILLNER AND MARGUERITE
EVANS WILLNER, APPELLANTS
v.
JAMES DIMON, INDIVIDUALLY, AS PRESIDENT
AND CEO OF JP MORGAN CHASE BANK, N.A.,
ET AL., APPELLEES

FILED ON: April 24, 2019

BEFORE: TATEL and KATSAS, Circuit Judges:
SENTELLE, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for panel
rehearing, it is
ORDERED that the petition be denied.

10a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
/s/ Ken R. Meadows
Deputy Clerk

11a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA
CIRCUIT
No. 18-5107
MICHAEL A. WILLNER AND MARGUERITE
EVANS WILLNER, APPELLANTS
v.
JAMES DIMON, INDIVIDUALLY, AS PRESIDENT
AND CEO OF JP MORGAN CHASE BANK, N.A.,
ETAL., APPELLEES

FILED ON: April 24, 2019

BEFORE: Garland, Chief Judge; Henderson,
Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges;
Sente lie, Senior Circuit Judge
ORDER

12a
Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
/s/ Ken R. Meadows
Deputy Clerk

13a

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 15-cv-01840 (CRC)
MICHAEL A. WILLNER AND MARGUERITE
WILLNER, PLAINTIFFS
v.
JAMES DIMON, ET AL., DEFENDANTS

Date: January 4, 2018

MEMORANDUM OPINION
Plaintiffs Michael and Marguerite Willner
defaulted on a $3 million refinancing loan that they
obtained in 2006 from the now-defunct Washington
Mutual Bank. Seeking to halt a foreclosure sale of
their property, the Willners brought suit in the
Eastern District of Virginia alleging, in essence, that
the banks who had since acquired rights to the loan
had no power to enforce it. That court dismissed
many of the Willners’ claims for lack of subject matter
jurisdiction. It found that the claims were governed

14a
by the Financial Institutions Reform, Recovery, and
Enforcement Act (“FIRREA”)—a statute that
establishes an administrative scheme to resolve
claims against failed financial institutions that have
been placed in receivership with the Federal Deposit
Insurance Corporation (“FDIC”). As a result, in the
court’s view, the Willners’ failure to raise their claims
with the FDIC in the first instance barred the court
from reviewing them.
The Fourth Circuit affirmed that dismissal in
February 2017. In the meantime, the Willners had
filed their claims with the FDIC. The FDIC denied
them as untimely because they were filed long after
the December 2008 “bar date” that the FDIC set to
govern claims against Washington Mutual Bank. The
Willners, proceeding pro se, then brought suit in this
Court challenging the FDIC’s denial. Following the
Fourth Circuit’s decision, they amended their
complaint to add constitutional claims against the
FDIC. Because the Willners fail to state viable claims
against the FDIC, and because the doctrine of issue
preclusion requires this Court to accord conclusive
effect to the Fourth Circuit’s relevant holdings, the
Court will dismiss all of the Willners’ claims.
I. Background
The following facts are drawn from the
Willners’ Amended Complaint and are taken as true
for purposes of this motion. The Willners own a home
on an eleven-acre lot in Lorton, Virginia along the
Potomac River. They purchased the lot in 1989 for

15a
$477,000 and spent about $2 million to build a
custom home on the property. Am. Compl.
28—29.
Between then and 2006, the Willners obtained three
refinancing loans from Washington Mutual Bank, FA
(“WMBFA”)—a trade name for the now-defunct
Washington Mutual Bank (“WMB”)—to “cash out”
equity in the property in order to pay their mortgage.
Id. U 32.
At the heart of this litigation is the third of
these refinancing loans, which Mr. Willner (who is an
attorney) obtained from WMBFA in September 2006
for $3 million. In applying for this loan, Mr. Willner
alleges that he told a WMBFA employee that he
expected about $52,000 in annual income that year.
Id. Tf 37. The employee, according to Mr. Willner,
listed this figure as Mr. Willner’s monthly income. Id.
1 38. A few weeks later, a different WMBFA
employee provided Mr. Willner with WMBFA’s
estimate of the property value—$5.2 million—which
the Willners believed to be accurate. But WMBFA
received a separate, undisclosed appraisal of the
property for only $4 million. Mr. Willner alleges that
he would not have obtained the loan (and instead
would have sold the property) had he known about
the lower appraisal value. Id. f 49.
The refinancing loan was secured by a deed of
trust for the property. Id. Ex. C. Mrs. Willner, afraid
of risking her share of the equity, refused to apply or
cosign for the loan and did not sign the promissory
note. Id. f 50-51. Both she and Mr. Willner did,
however, sign the deed of trust, which identifies both

16a
as the “borrower.” Id. Iff 64—65; id. Ex. C, at 3, 15. By
signing the deed and not the promissory note, Mrs.
Willner apparently believed that she was releasing
her interest in Mr. Willner’s share of the property
and thereby allowing him to secure the loan with his
interest alone. Id. f 65.
Not long after the 2008 recession struck, WMB
collapsed. On September 25, 2008, the Office of Thrift
Supervision, an arm of the Treasury Department,
declared the bank insolvent and placed it into
receivership with the FDIC. Id. f 101. Notice of the
FDIC’s receivership and the claims bar date was
published in several newspapers, including the Wall
Street Journal. Decl. Donald G. Grieser Support
FDIC-Receiver’s Mot. Dismiss f 5. The day that the
FDIC took over WMB, it facilitated a transaction
whereby JPMorgan Chase bought most of WMB’s
assets, including the right to service Mr. Willner’s
loan. Am. Compl. f 103. Sometime in October 2008,
Chase notified Mr. Willner that it had acquired the
right to service the loan from the FDIC. Id. f 107.
The Willners’ loan was subsequently
repackaged and transferred to U.S. Bank N.A., and
the right to service the loan was transferred to Select
Portfolio Servicing, Inc. Id, ff 16—17. The Willners
made payments on the loan for several years without
serious issue. But by mid-2010, signs of trouble arose.
The couple sought to refinance the loan with Chase
in July 2010, but were denied due to insufficient
income. Id, f 111. By May 2011, the Willners were
unable to keep up on their loan payments and

17a
defaulted. Id.
112, 115-16. Mr. Willner asked
Chase for a 90-day delay on foreclosure so that he
could attempt to sell the property, but Chase
apparently ignored the request. Id. f 115. He also
sought a loan modification from Chase, but it notified
him that he was ineligible due to the nature of the
loan. Around this time, Mr. Willner discovered
documents purportedly showing that his loan
application listed his annual income as $624,000 (or
$52,000 per month); that WMBFA had received a $4
million appraisal for the property; and that,
according to records of the Securities and Exchange
Commission, WMBFA ceased to exist several months
before the loan agreement was executed. IcL
11752.
In November 2012, Chase notified the Willners
that it intended to foreclose on the property by
auctioning it the next month. Mr. Willner filed for
Chapter 11 bankruptcy shortly thereafter. Id. Tf 182.
While bankruptcy proceedings were pending, 1 the
Willners in July 2014 filed suit pro se in the Eastern
District of Virginia against JPMorgan Chase, its
CEO James Dimon, U.S. Bank, and Select Portfolio
Servicing. See Willner v. Dimon. 2015 WL 12755135
(E.D. Va. May 11, 2015). In its twenty-seven counts,
the complaint essentially sought a declaration that
the promissory note and deed of trust were
unenforceable, an injunction to halt
any foreclosure, and damages. Id. at *2. By order
issued in May 2015, the district court dismissed the
entire case on various grounds. As relevant here, it
dismissed twelve of the counts for lack of subject

18a

matter jurisdiction, finding that, under FIRREA, the
Willners’ failure to properly exhaust those claims
with the FDIC precluded the court from reviewing
them. The Willners then appealed to the Fourth
Circuit.
In August 2015, while their appeal was pending,1 the
Willners each filed a proof of claim with the
1. In November 2016, Mr. Willner’s Chapter 11 plan was
approved and the bankruptcy case was closed. Am.
Compl. 1 213.

FDIC. Decl. of Donald G. Grieser in Support FDICReceiver’s Mot. Dismiss (“Grieser Decl.”) If 6; id. Ex.
C. Both alleged six identical claims that requested
essentially the same relief sought in their Fourth
Circuit litigation. In certified letters dated
September 2, 2015, the FDIC denied the Willners’
claims. Defs.’ MTD Ex. D. The FDIC explained that
it received their proofs of claim after the December
30, 2008 bar date; that FIRREA (specifically, 12
U.S.C. § 1821(d)(5)(C)(i)) demanded denying the
claims as untimely filed; and that the FDIC would
“not consent to any further administrative review of
this claim determination.” Id.
Shortly after they received the FDIC denial
letters, the Willners brought suit in this Court
against James Dimon, JPMorgan Chase, U.S. Bank,
Select Portfolio Servicing, and nineteen unspecified
Does—all together, the “bank defendants.” The
Willners sought the same relief that was denied by
the FDIC:

19a

1. A declaration that none of the bank defendants have
a legal right to foreclose on the property under the
deed of trust because it was signed only by Mr.
Willner;
2. A similar declaration based on the fact that the
bank defendants would be unjustly enriched if
allowed to foreclose;
3. Damages and the right to rescind the loan
agreement based on all of the bank defendants’
fraudulent concealment of facts material to the
contract;
4. A declaration as to the bank defendants that the
deed of trust is unenforceable because WMBFA had
no legal capacity to enter a loan agreement;
5. An order to quiet title against U.S. Bank based on
the foregoing; and
6. Damages based on the bank defendants’
conspiracy to commit fraudulent concealment. See
Amend. Compl. 34—46. At the parties’ request, this
Court stayed this case until the Fourth Circuit issued
its decision.
The Fourth Circuit ultimately affirmed
dismissal. 849 F.3d 93, 114 (4th Cir. 2017). With
respect to the claims that had been dismissed
pursuant to FIRREA,2 the court rejected the
argument that those claims actually challenged

20a
conduct by Chase and U.S. Bank—neither of which
were under FDIC receivership—and therefore did not
fall within FIRREA’s exhaustion requirement. As the
court explained, while several counts of the
complaint were “formally asserted against Chase and
U.S. Bank, they [were] functionally pleaded against
WMB’s acts and omissions.” Id. at 104; see also id. at
110-11. The Court also saw no constitutional
problem with FIRREA’s withdrawal of jurisdiction
for claims that purportedly “didn’t accrue until Chase
threatened foreclosure, which was years after the
December 2008 ‘bar date,”’ as it found that “the
Willners had actual notice that WMB was in
receivership” before that date. Id. at 111. The
Willners did not seek Supreme Court review of the
Fourth Circuit decision.
2 Except for one claim not relevant here. See 849 F.3d at
111, 113 n.7.

Following the Fourth Circuit’s decision, this
Court lifted its stay. The Willners filed an amended
complaint, adding as a defendant the FDIC in its
capacity as receiver for WMB. The amended
complaint asserted three new counts against the
FDIC alone with a unifying theme: that, unless the
Court agreed to review the six claims raised against
the bank defendants, the FDIC’s administrative
denial of those claims as untimely would violate their
due process rights under the Fifth Amendment; their
Seventh Amendment right to a jury trial; and Article
III. Am. Compl. 49-51. In separate motions, the bank

21a
defendants and the FDIC have moved to dismiss the
Willners’ claims.
II. Legal Standards
A. FIRREA’s Administrative Process
The Financial Institutions Reform, Recovery,
and Enforcement Act of 1989 (“FIRREA”) allows the
FDIC to take control of a failed financial institution
as its “receiver” and wind up the institution’s affairs.
See Freeman v. FDIC. 56 F.3d 1394, 1398 (D.C. Cir.
1995); 12 U.S.C. § 1821(d)(2). Part of the wind-up
process involves resolving outstanding claims
against the bank or the FDIC as its receiver. FIRREA
sets up an administrative process for the FDIC to
adjudicate these claims in the first instance. Am.
Nat’l Ins. Co. v. FDIC. 642 F.3d 1137, 1141 (D.C. Cir.
2011).
When the FDIC becomes a bank’s receiver, it
must promptly publish a notice instructing creditors
to file their claims against the bank or receiver with
the FDIC by a certain date. This so-called “bar date”
must be at least 90 days after publication of the
notice. 12 U.S.C. § 1821(d)(3)(B). The FDIC must
mail a similar notice to other possible claimants of
which it becomes aware. Id. § 1821(d)(3)(C). The
FDIC has 180 days to “allow” (i.e., pay) or “disallow”
(i.e., refuse to pay) any claim filed, and it must
provide written notice of any disallowance with
reasons provided. Id. § 1821(d)(5)(A).

22a
FIRREA imposes limits on the review of
disallowed claims. For claims that were properly filed
before the bar date, the claimant may seek either
direct judicial review or administrative (followed by
judicial) review. The claimant must do so within 60
days of the FDIC’s notice of disallowance or the end
of the FDIC’s 180-day period to review the claim,
whichever is earlier. IcL § 1821(d)(6)—(7). Failure to
comply with the 60-day limitations period is fatal to
the claim, “and the claimant shall have no further
rights or remedies with respect to such claim[s].” Id.
§ 1821(d)(6)(B).
Claims filed after the bar date, on the other
hand, are automatically disallowed “and such
disallowance shall be final.” Id. § 1821(d)(5)(C)(i). The
statute provides for one exception: the FDIC may
consider a late-filed claim if “(I) the claimant did not
receive notice of the appointment of the receiver in
time to file [a] claim before [the bar] date; and (II)
such claim is filed in time to permit payment of such
claim.” Id. § 1821(d)(5)(C)(ii). Where this exception
applies, the FDIC has discretion to evaluate the claim
as if it were timely filed.
Courts have no jurisdiction to review claims
that have not properly gone through FIRREA’s
administrative procedure. Specifically:
Except as otherwise provided in this
subsection [i.e., through the administrative claims
process], no court shall have jurisdiction over—

23a
(i) any claim or action for payment from, or any
action seeking a determination of rights with respect
to, the assets of any depository institution for which
the Corporation has been appointed receiver,
including assets which the Corporation may acquire
from itself as such receiver; or
(ii) any claim relating to any act or omission of such
institution or the Corporation as receiver.
12 U.S.C. § 1821(d)(13)(D). The D.C. Circuit has read
this language to create an exhaustion requirement
for claims falling within FIRREA. Thus, “anyone
bringing a claim against or ‘seeking a determination
of rights with respect to’ the assets of a failed bank
held by the FDIC as receiver” must first file “an
claim
under
the
FDIC’s
administrative
administrative claims process.” Freeman. 56 F.3d at
1400. Same goes for anyone who brings a claim
“relating to any act or omission of such institution or
the [FDIC] as its receiver.” 12 U.S.C.
§ 1821(d)(13)(D)(ii). On the other hand, FIRREA’s
exhaustion requirement does not govern claims
against a third-party institution (that is, one never
placed in receivership) based on that third party’s
own conduct. See Am. Nat’l Ins. Co.. 642 F.3d at
1141-42. But a claimant cannot avoid FIRREA’s
requirements by formally pleading claims against a
third-party institution if its claims are functionally
against an institution in receivership. IcL at 1144; see
also Westbergv. FDIC. 741 F.3d 1301,1306 (D.C. Cir.
2014).

24a
Where a claimant has failed to exhaust
FIRREA’s administrative process with respect to
a claim, federal courts lack subject matter
jurisdiction to review that claim. See Westberg, 741
F.3d at 1303; see also Alkasabi v. Wash. Mut. Bank,
F.A., 31 F. Supp. 3d 101, 107 (D.D.C. 2014).
B. Motions to Dismiss
The defendants move to dismiss this case for
lack of subject matter jurisdiction, Fed. R. Civ. P.
12(b)(1), and for failure to state a claim on which
relief can be granted, id, 12(b)(6). On a motion to
dismiss for lack of subject matter jurisdiction under
Rule 12(b)(1), the plaintiff bears the burden of
establishing jurisdiction. Kokkonen v. Guardian Life
Ins. Co. of Am.. 511 U.S. 375, 377 (1994). The Court
must accept the plaintiffs factual allegations as true.
United States v. Gaubert. 499 U.S. 315, 327 (1991).
The Court must grant a motion under Rule
12(b)(6) if the allegations in the complaint do not
“contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (quoting
Bell Atlantic Corn, v. Twomblv. 550 U.S. 544, 570
(2007)).
III.

Analysis

The defendants urge dismissal on several
grounds. Most broadly, they contend that the Court
lacks jurisdiction to review any of the Willners’
claims because none were timely filed with the FDIC.

25a
In addition to making this argument on the merits,
the defendants invoke the doctrine of issue preclusion
and argue that the Fourth Circuit has already
conclusively established that this Court lacks
jurisdiction over the Willners’ claims. The FDIC also
argues that the Willners’ failure to file suit against it
within 60 days of its administrative denial serves as
an independent barrier to this Court’s jurisdiction;
that the Willners lack standing to raise
constitutional claims against it; and that their
constitutional claims fail on the merits.
A. Counts 1-6: Claims Against All Defendants Based
on the Loan
The Willners accept that, as a general matter,
claims against WMB or against the FDIC as its
receiver are governed by FIRREA’s administrative
claims process. They also concede that they filed their
claims with the FDIC long after the December 30,
2008 bar date. But they contend that their tardiness
does not foreclose judicial review because their claims
were not discoverable until well after the bar date.
Therefore, they argue, the claims are timely, either
because they fall within FIRREA’s exception for latefiled claims or because the bar date should be
equitably tolled. The defendants respond that none of
the Willners’ claims falls within FIRREA’s exception,
and that their failure to timely exhaust their
remedies with the FDIC deprives this Court of
jurisdiction (and thus of the ability to toll any filing
deadlines). They further contend that, even if the
Court could equitably excuse the Willners’ untimely

26a
filing, tolling is not warranted because the claims
were discoverable with due diligence.
Resolving
these
competing
arguments
requires answering three questions: First, are the
claims subject to FIRREA at all, given that they are
not formally pled against WMB or WMBFA, but
rather against a subsequent holder and servicer?
Second, assuming the Willners were required to
proceed through FIRREA’s administrative process,
should the FDIC have excused their late filing under
the statutory exception for late-filed claims? Finally,
assuming that the FDIC properly deemed the claims
untimely under FIRREA, can (and should) the Court
excuse the late filing for any other reason?
1.
The Claims are Subject
Administrative Claims Process

to

FIRREA’s

The first question—whether the Willners were
required to file these claims with the FDIC—has been
answered directly by the Fourth Circuit. And, as the
Willners appear to concede, the doctrine of issue
preclusion prevents this Court from revisiting the
Fourth Circuit’s determination. See Michael Willner
Opp. at 13, 17.
Issue preclusion aims to “reduce unnecessary
litigation and foster reliance on adjudication.” Allen
v. McCurrv. 449 U.S. 90, 95 (1980). The doctrine bars
a plaintiff from relitigating a legal or factual issue
that the plaintiff contested and lost in a prior case, so
long as the issue was “actually and necessarily
determined by a court of competent jurisdiction in

27a
that prior case” and “preclusion in the second case
[would] not work a basic unfairness to the party
bound by the first determination.” Yamaha Corn, of
Am. v. United States. 961 F.2d 245, 254 (D.C. Cir.
1992)). The D.C. Circuit construes the “basic
unfairness” exception narrowly—the party seeking to
avoid preclusion must make “a compelling showing of
unfairness.” Canonsburg Gen. Hosn. v. Burwell, 807
F.3d 295, 306 (D.C. Cir. 2015) (quoting Otherson v.
DOJ. 711 F.2d 267, 277 (D.C. Cir. 1983)). Typically,
this sort of showing is possible only where the parties
in the first case lacked an incentive to litigate the
issue sought to be precluded, or where there has been
a significant change in controlling law since the first
case. See id.
In deciding whether issue preclusion applies,
this Court does not review the merits of the prior
decision, even if it disagrees with the other court’s
outcome or reasoning. Nat’l Post Office Mail
Handlers. Watchmen. Messengers, and Grp. Leaders
Div. of Laborers’ Int’l Union of N. Am. v. Am. Postal
Workers Union. 907 F.2d 190, 194 (D.C. Cir. 1990).
That is true even where_the prior decision conflicts
with D.C. Circuit precedent. See id.; Yamaha. 961
F.2d at 258 (“[T]he fact that the substantive law may
be different in the two jurisdictions does not affect the
application of issue preclusion.”).
All of the elements of preclusion are met with
respect to whether the Willners’ claims against
WMB’s successors-in-interest are subject to
administrative exhaustion under FIRREA. The
Willners were plaintiffs in the Eastern District of

28a
Virginia and appealed that court’s resolution of this
issue to the Fourth Circuit; they squarely presented
the issue to the Fourth Circuit; the Fourth Circuit
decided the issue against them; and its
determination was necessary to its ultimate ruling.
Specifically, the Fourth Circuit could affirm
dismissal of the relevant claims for lack of
jurisdiction only if the claims functionally challenged
conduct by WMB—only then would the claims be
subject to FIRREA’s administrative process. The
Willners’ primary argument was the same one they
raise here: that the claims were against Chase and
U.S. Bank, not WMB. The Fourth Circuit, while
agreeing that FIRREA did not cover claims “against
a third-party bank for its own wrongdoing,” rejected
the contention that the Willners’ claims were actually
based on third-party conduct. 849 F.3d at 104
(quoting Am. Nat’l Ins. Co.. 642 F.3d at 1142). The
court instead found that Counts 1, 2, 5, 6, and 16-19
of the complaint in the Eastern District of Virginia
were “functionally pleaded against the acts and
omissions of WMB rather than against independent
misconduct by Chase and U.S. Bank,” and thus that
FIRREA “operate[d] as a jurisdictional bar” for those
claims. Id. The allegations in those dismissed counts
encompass all of the allegations raised in Counts 1-6
of the amended complaint in this case. Compare 849
F.3d at 101—02, with Am. Compl. 34—48. As a result,
the Fourth Circuit has conclusively determined that
the claims raised here were required to go through
FIRREA’s administrative process.

29a
2. The Claims Do Not Fall Within FIRREA’s
Exception for Late-Filed Claims
Given that the claims are subject to FIRREA’s
administrative scheme, the Court must next decide
whether the claims fall within the statute’s exception
for late-filed claims. Again, the statutory exception
applies only if “the claimant did not receive notice of
the appointment of the receiver in time to file [a]
claim before [the bar] date.” 12 U.S.C. §
1821 (d)(5)(C)(ii)(I). The D.C. Circuit has clarified
that the relevant “notice” is that of the institution’s
receivership generally, and that the failure to receive
notice of the bar date specifically does not bring a
claimant within the statutory exception. See
Freeman. 56 F.3d at 1402; Alkasabi, 31 F. Supp. 3d
at 107-08.
This issue, too, has been conclusively resolved
by the Fourth Circuit. Specifically, by finding that
the Willners had actual notice of WMB’s receivership
well before the bar date, the Fourth Circuit has
established that their claims do not fall within the
statutory exception. In the Fourth Circuit, the
Willners argued that requiring administrative
exhaustion of their claims would violate their due
process rights because it left them without any viable
forum for claims that accrued after the bar date. The
court accepted that the Willners might be left without
such a forum, but it found no due process violation.
Citing circuit precedent, the court explained that “[a]
plaintiff cannot challenge her failure to exhaust
claims with the FDIC on due process grounds if she
has actual notice that the failed bank is in

30a
receivership or ‘kn[ows] enough about the situation
to [have] inquiry notice as to the details of the
administrative process.’” 849 F.3d at 111 (quoting
Elmco Props.. Inc, v. Second Nat’l Fed. Sav. Ass’n, 94
F.3d 914, 921 (4th Cir. 1996)).
Applying this standard, the Fourth Circuit
found that “the Willners had actual notice that WMB
was in receivership prior to the ‘bar date,”’ and thus
that they had no viable due process challenge. Id. The
court’s conclusion that the Willners had actual notice
of WMB’s receivership was therefore necessary to its
ruling, and the Willners, with the aid of counsel,
ardently litigated the issue.3
3 While Mr. Willner separately raised certain arguments
pro se, all of the issues relevant to this case were argued by
counsel and were jointly appealed to the Fourth Circuit by
Mr. and Mrs. Willner, the latter of whom was represented
by esteemed counsel. 849 F.3d at 99, 103.

This Court must therefore accord preclusive
effect to the Fourth Circuit’s conclusion. And because
FIRREA’s exception applies only where the claimant
did not have notice of an institution’s receivership in
time to file claims with the FDIC, the Willners’
claims do not fall within the exception.
3. The Willners’Failure to File the Claims Before the
December 2008 Bar Date Deprives this Court of
Jurisdiction to Review the FDIC’s Denial
To summarize: the Willners’ claims are subject
to FIRREA’s exhaustion requirement and the
statute’s late-filed exception does not apply to their

31a
claims. The final question is therefore whether the
Willners’ late filing should be excused for some other
reason.
The Willners’ argument on this front runs as
follows: The claims they raised with the FDIC were
not reasonably discoverable until well after the 2008
bar date had passed. Where a claim was not
discoverable until after the bar date, the bar date
must be treated like a statute of limitations and not
as a jurisdictional barrier to this Court’s review of
those claims. Otherwise—given the FDIC’s denial of
their claim as untimely and this Court’s lack of
jurisdiction to review that denial—the Willners
would lack any forum in which to challenge a
deprivation of their property interest, which would
violate their due process rights.
If this Court had power to consider the
question anew, it might well agree with the Willners.
Their argument, after all, finds some support in D.C.
Circuit caselaw: While the D.C. Circuit in Freeman
held that FIRREA’s exhaustion process is mandatory
and jurisdictional, and that in typical circumstances
its exhaustion scheme raises no constitutional
problems, the court noted that treating the bar date
itself as jurisdictional could violate due process if a
party had no meaningful opportunity to raise a claim
with the FDIC before the bar date. See 56 F.3d at
1403 n.2 (“[I]f [the plaintiffs] were not afforded notice
of their exclusive opportunity to present their claims,
serious due process concerns would be implicated . ..
.”). The D.C. Circuit suggested that, in such a case, a
reviewing court should treat the bar date similarly to

32a
a statute of limitations: the failure to comply with the
deadline would not deprive a court of jurisdiction to
review the late claim, but rather would serve as a
defense to pursuit of the claim on the merits. Id. A
claimant could then overcome that defense by
showing ‘“equitable reasons for noncompliance’ with
the time bar.” Id. (quoting Baver v. U.S. Dep’t of
Treasury, 956 F.2d 330, 332-33 (D.C. Cir. 1992)).
Arguably, the D.C. Circuit’s concerns extend to
claims that were not reasonably discoverable until
well after the bar date passed—if the bar date were
not tolled, claimants would have no opportunity to
raise those claims with the FDIC or in a federal court.
See Alkasabi, 31 F. Supp. 3d at 110-11.
But, yet again, the Fourth Circuit decision
resolved this very issue against the Willners, and this
Court must adopt that resolution under the doctrine
of issue preclusion. As part of the Willners’ argument
that forcing their claims through FIRREA would
deprive them of due process, they argued
persuasively in their opening appellate brief that
they not only lacked sufficient notice to file a timely
claim; their claims had not even accrued in time to
file a timely claim. Thus, according to the FDIC, the
Willners’ claims were late the instant they accrued
and were, therefore, impossible to bring. That cannot
be correct. Yet that is what follows from the district
court’s dismissal. If the Willners are deprived of their
property without “any opportunity to protest—either
pre- or post-deprivation,” their due process rights will
be violated. Corr. Joint Opening Br. for Pls.Appellants at 36, Willner v. Dimon. 849 F.3d 93 (4th

33a
Cir. 2017) (No. 15-1678), 2015 WL 6470972, at *36.
That argument was, however, squarely rejected by
the Fourth Circuit:
[W]e [now] take up the Willners’ argument
that requiring administrative exhaustion . . .
violates the Fifth Amendment’s Due Process
Clause because their claims didn’t accrue
until Chase threatened foreclosure, which
was years after the December 2008 “bar date”
to submit claims against WMB to the FDIC.
This argument also fails.
A plaintiff cannot challenge her failure to
exhaust claims with the FDIC on due process
grounds if she has actual notice that the failed
bank is in receivership or “kn[ows] enough
about the situation to [have] ‘inquiry notice’
as to the details of the administrative
process.” Here, the Willners had actual notice
that WMB was in receivership prior to the
“bar date.” As described above, [the relevant
claims] are functionally, if not formally,
pleaded against WMB’s acts and omissions.
Furthermore, those [claims] are based upon
conduct of WMB which took place before
WMB entered into receivership.
Section 1821(d)(13)(D) [of FIRREA] does not
contain a discovery rule that tolls claims. It is,
by design, severe. The onus was on the
Willners to timely submit any claims that
they had against WMB to the FDIC, and they

34a
failed to do so. There is no constitutional
violation here.
Willner, 849 F.3d at 111-12 (citation omitted).
In other words, the Fourth Circuit found it
irrelevant that the Willners’ claims may not have
been discoverable until after the bar date because it
interpreted FIRREA to contain no “discovery rule
that tolls claims.” Id. at 112. In the court’s view, the
fact that the claims were functionally pleaded
against WMB meant that the Willners were required
to submit them to the FDIC before the bar date no
exceptions. The Fourth Circuit’s resolution was
essential to its ultimate conclusion—the opposite
holding would have required, as a constitutional
matter, that the Willners be allowed to raise their
claims notwithstanding the bar date.
The Fourth Circuit’s holding was avowedly
“severe,” id-, and is somewhat in tension with the
D.C. Circuit’s decision in Freeman. But, again, the
operation of issue preclusion does not depend on
whether the prior decision comports with the D.C.
Circuit’s interpretation of FIRREA or the due process
clause. Where a prior court has resolved an issue
between the same parties that was necessary to its
judgment, its resolution is final subject only to
narrow equitable exceptions. And none of the
recognized equitable exceptions to issue preclusion
apply, as the parties had robust incentives to litigate
the issue and nothing about the legal landscape has
changed since the Fourth Circuit’s February 2017
ruling.4

35a

4 The only change in circumstances was the fact that the
Willners filed their claims with the FDIC between the
district court’s dismissal and the Fourth Circuit’s issuance
of its decision. But the Fourth Circuit’s holding on this point
did not turn on whether the Willners had yet filed the
claims. The court could hardly have been clearer: FIRREA
contains no discovery rule, and thus due process did not
prevent application of FIRREA’s bar date to claims that do
not accrue
until after the bar date.

As a result, this Court need not determine
whether the Willners’ claims indeed accrued after the
bar date. Even if the Willners could not have
discovered their claims with reasonable diligence
until after the bar date, the Fourth Circuit has held
that the bar date serves as a mandatory,
jurisdictional barrier to their assertion of those
claims in federal court. This Court therefore lacks
jurisdiction over Counts 1-6 of the Amended
Complaint and will dismiss those claims.
B. Counts 7-9: Constitutional Challenges
In addition to their claims related to the
pending foreclosure, the Willners raise three
constitutional claims, each nominally against the
FDIC. On closer examination, however, it is evident
that these challenges are not truly legal claims
against the agency, but are instead arguments that
the Court should interpret FIRREA so as to avoid
constitutional problems. In Count 7, for example, the
Willners allege the following:

36a
If this Court were to rule that it lacks subject matter
jurisdiction because the Willners filed their claims
with the FDIC after the Claims Bar Date, then the
FDIC’s disallowance of their claims would have
deprived them of some or all of their protected
interests without affording them
adequate
procedural rights in violation of the Due Process
Clause.
This is not an allegation that the FDIC has, in fact,
deprived the Willners of due process. Rather, it is an
argument that the Court must exercise subject
matter jurisdiction over the Willners’ claims because
the failure to do so would result in a due process
violation. The same is true for Count 8, which
nominally alleges a violation of the Seventh
Amendment trial right, and Count 9, which invokes
Article III.
Even accepting that these arguments could be
properly construed as allegations against the FDIC,
all three fail to state a claim on which relief can be
granted. As just explained, the Fourth Circuit
expressly held that so long as the Willners had notice
of WMB’s receivership (which they did), treating the
bar date as jurisdictional does not violate due
process. Under the doctrine of issue preclusion, the
Willners cannot repackage that same argument
before this Court. And due process is their only
colorable constitutional argument. The Seventh
Amendment “was designed to preserve the basic
institution of jury trial in only its most

37a
fundamental elements.” Galloway v. United States,
319 U.S. 372, 392 (1943). As a result, it has never
been understood to prohibit time limits, exhaustion
requirements, or other procedural devices that, if not
comp bed with, prevent a plaintiff s claims from going
to a jury. See, e.g., Parklane Hosiery Co. v. Shore. 439
U.S. 322, 336 (1979) (“[M]any procedural devices
developed since 1791 that have diminished the civil
jury’s historic domain have been found not to be
inconsistent with the Seventh Amendment.”). Nor do
such devices violate Article III, which guarantees an
opportunity for judicial review of certain claims but
allows for restrictions on that opportunity, including
subjecting plaintiffs to strict administrative
exhaustion requirements. Thus, unsurprisingly,
FIRREA’s process has been repeatedly upheld in the
D.C. Circuit despite the fact that noncompliance with
the process forecloses judicial review. See Freeman.
56 F.3d at 1403-05. The Court will dismiss Counts 7
through 9 of the complaint for failure to state a claim.
IV. Conclusion
The Fourth Circuit held that the Willners’
claims related to their refinancing loan are subject to
FIRREA’s exhaustion requirement. It found that the
Willners had actual notice of the fact that WMB went
into FDIC receivership, which precludes this Court
from finding that FIRREA’s statutory exception
applies. The Fourth Circuit’s rejection of the
Willners’ due process argument requires that this
Court treat FIRREA’s bar date as jurisdictional—this
Court may not grant equitable relief from it. Thus,
because the Willners concededly filed their claims

38a
well after the bar date, this Court lacks subject
matter jurisdiction to review the FDIC’s denial of
those claims as untimely. And the Court finds that
the Willners have failed to plausibly state any claims
against the FDIC. The Court will therefore
dismiss this case, and it need not address the
defendants’ alternative arguments for dismissal. A
separate Order accompanies this Memorandum
Opinion.

CHRISTOPHER R. COOPER
United States District Judge
Date: January 4, 2018

39a

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 15-cv-01840 (CRC)
MICHAEL A. WILLNER AND MARGUERITE
WILLNER, PLAINTIFFS
v.
JAMES DIMON, ET AL., DEFENDANTS

Date: February 15, 2018

OPINION AND ORDER
For the reasons stated in the accompanying
Memorandum Opinion, it is hereby
ORDERED that Defendants’ Joint Motion to
Dismiss the Amended Complaint (ECF No. 20) is
GRANTED. It is further
ORDERED that FDIC-Receiver’s Motion to
Dismiss (ECF No. 25) is GRANTED.

40a
This case is hereby DISMISSED. This is a final,
appealable order.
SO ORDERED.

CHRISTOPHER R. COOPER
United States District Judge

41a
MEMORANDUM OPINION
Plaintiffs Michael and Marguerite Willner
have moved under Federal Rule of Civil Procedure
59(e) to alter or amend the Court’s Order issued
January 4, 2018 (ECF No. 33), which dismissed all of
the Willners’ claims. The Court will deny their
motion.
The Memorandum Opinion (ECF No. 34)
accompanying the Court’s Order sets forth the full
background of this dispute. To summarize: The
Willners obtained a $3 million refinancing mortgage
loan in 2006 from Washington Mutual Bank, which
collapsed during the 2008 financial crisis. When a
bank fails, the Financial Institutions Reform,
Recovery, and Enforcement Act (“FIRREA”) provides
an administrative scheme that allows the FDIC to
step into the bank’s shoes as its “receiver” and to
resolve claims against it. The FDIC became
Washington Mutual’s receiver in September 2008
and set a “bar date”—the date by which claims must
be filed—for December of that year. The Willners did
not submit claims through that process. Several
years later, they defaulted on the refinancing loan,
which had since been purchased by JPMorgan Chase.
Then, in 2015, the Willners filed suit in the U.S.
District Court for the Eastern District of Virginia
against Chase and several other financial
institutions in order to halt an impending foreclosure
on the property. That court dismissed their claims for
lack of subject matter jurisdiction on the ground that
the Willners had not brought their claims through

42a
FIRREA’s mandatory administrative claims process,
which under the statute is a prerequisite to judicial
review. Following that ruling, the Willners submitted
their claims to the FDIC and, when the FDIC denied
them as untimely filed, they brought suit against the
financial institutions and the FDIC in this Court. The
Fourth Circuit then affirmed the Eastern District’s
dismissal ruling in February 2017. This Court’s
dismissal followed.
Acknowledging that a court’s reconsideration
of a prior ruling is discretionary, the Willners urge
that Rule 59(e) relief is necessary here “to correct a
clear error or prevent manifest injustice.” Firestone
v. Firestone. 76 F.3d 1205, 1208 (D.C. Cir. 1996).
They home in on the Court’s conclusion—based on
the doctrine of issue preclusion and the Fourth
Circuit’s prior decision—that FIRREA stripped
jurisdiction over their claims regardless of when they
accrued. The Willners’ primary contention is that,
because the Fourth Circuit affirmed dismissal before
they had filed their claims with the FDIC, the court’s
holding did not account for whether FIRREA
deprived federal courts of jurisdiction over untimely
claims after those claims were filed with the FDIC.
And because that precise issue was not “actually and
necessarily determined” in the Fourth Circuit case,
their argument goes, it cannot be accorded preclusive
effect in this case. Yamaha Corn, of Am. v. United
States. 961 F.2d 245, 254 (D.C. Cir. 1992).
The Court considered and rejected this exact
argument in dismissing Counts 1 through 6 of the
amended complaint, and will do so again here. The

43a
Willners remain correct that the Fourth Circuit
decision did not expressly consider whether the
Willners’ subsequent filing of claims with the FDIC
would affect its ruling. But the Willners’ argument
before the Fourth Circuit presaged their filing of
claims with the FDIC: they contended that treating
FIRREA’s administrative process as jurisdictional
would require them to bring claims before the FDIC
that would surely be denied as untimely, thereby
depriving them of due process. See Corr. Joint
Opening Br. for Pis.-Appellants at 36, Willner v.
Dimon. 849 F.3d 93 (4th Cir. 2017) (No. 15-1678),
2015 WL 6470972, at *36 (“[T]heir claims had not
even accrued in time to file a timely claim. Thus,
according to the FDIC, the Willners’ claims were late
the instant they accrued and were, therefore,
impossible to bring.”). In fact, the Willners in their
reply brief relied heavily on the fact that, during the
litigation, they had filed their claims with the FDIC
and those claims had been denied as untimely. See
Pis.’ Reply Br. at 12-17, iff And the reason that the
Fourth Circuit provided for rejecting the Willners’
argument squarely resolved the issue in a way that
accounted for their subsequent decision to file claims
with the FDIC. See Willner. 849 F.3d at 111—12
(“Section 1821(d)(13)(D) [of FIRREA] does not
contain a discovery rule that tolls claims. It is, by
design, severe. The onus was on the Willners to
timely submit any claims that they had against WMB
to the FDIC, and they failed to do so. There is no
constitutional violation here.”). Thus, the issue
presented in this case was “actually” determined for
purposes of issue preclusion. See Montana v. United

44a
States, 440 U.S. 147, 155 (1979) (explaining that the
relevant question is “whether the issues presented . .
. are in substance the same” (emphasis added)).
Moreover, as this Court explained, if the
Fourth Circuit had accepted the Willners’ due process
argument, it would have been forced to resolve the
case differently—that is, the issue was “necessarily”
determined for purposes of issue preclusion. In
arguing to the contrary, the Willners reiterate that
the Fourth Circuit could have resolved the case
against them on narrower grounds. Specifically, the
court could have held that because the Willners had
not yet taken their claims to the FDIC—and only for
that reason—federal courts lacked jurisdiction over
those claims. But this argument takes issue
preclusion’s “necessity” requirement one step too far.
The Willners would have this Court ignore the
reason actually proffered by the prior court in
resolving the issue against them and instead attempt
to divine the minimum possible reasoning that could
logically support the prior court’s holding. Issue
preclusion does not demand that sort of ex post
reconstruction. The relevant question is not “whether
the resolution of an issue was necessary to reach the
same outcome; rather, the inquiry is whether the
issue was necessary to the decision actually
rendered.” Manganella v. Evanston Ins. Co., 700 F.3d
585, 594 (1st Cir. 2012); see also Charles Alan Wright
et al., Federal Practice & Procedure § 4421, at 54849 (2d ed. 2002) (urging courts to resist temptation to
“speculate that a prior decision could have been
rested on narrower grounds than those actually

45a
chosen, so that resolution of the broader issues was
not necessary to the decision”).
In sum, the Fourth Circuit held that the
Willners’ failure to timely file their claims with the
FDIC barred federal jurisdiction over those claims.
And as this Court explained in its earlier ruling,
“nothing about the legal landscape has changed since
the Fourth Circuit’s February 2017 ruling” that
would render issue preclusion inapplicable. Memo.
Op. at 16 n.4. Nor does anything in the Willners’
present motion convince the Court that it should
revisit that conclusion.
The Court has also considered the Willners’
other arguments in favor of reconsideration and,
largely for the reasons stated in the defendants’
oppositions, it finds no basis for revisiting its prior
ruling. Accordingly, it is hereby:
ORDERED that Plaintiffs’ Joint Motion to Alter or
Amend Judgment (ECF No. 35) is DENIED.
SO ORDERED.

CHRISTOPHER R. COOPER
United States District Judge
Date: February 15, 2018

46a

APPENDIX F
1. U.S. Const. Article III, Section 1 provides in
pertinent part:
The judicial Power of the United States, shall be
vested in one Supreme Court, and in such inferior
courts as the Congress may from time to time ordain
and establish.
2. U.S. Const. Article III, Section 2 provides in
pertinent part:
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which
shall be made, under their authority...
3. U.S. Const. Amend. V provides in pertinent part:
No person shall ... be deprived of life, liberty, or
property, without due process of law...”
4. 12 U.S.C. § 1821(d)(5)(A)(iy) provides in pertinent
part:
Contents of notice of disallowance. If any claim filed
under clause (i) is disallowed, the notice to the
claimant shall contain—

47a
(I) a statement of each reason for the disallowance;
and
(II) the procedures available for obtaining agency
review of the determination to disallow the claim or
judicial determination of the claim.
5. 12 U.S.C. §1821(d)(5)(C) provides:
Disallowance of claims filed after end of filing period.
(i) In general. Except as provided in clause (ii),
claims filed after the date specified in the notice
published under paragraph (3)(B)(i) shall be
disallowed and such disallowance shall be final.
(ii) Certain exceptions. Clause (i) shall not apply
with respect to any claim filed by any claimant after
the date specified in the notice published under
paragraph (3)(B)(i) and such claim may be considered
by the receiver if—
(I) the claimant did not receive notice of the
appointment of the receiver in time to file such claim
before such date; and
(II) such claim is filed in time to permit payment of
such claim.

48a
6. 12 U.S.C. § 1821(d)(6) provides:
Provision for agency review or judicial determination
of claims.
(A) In general. Before the end of the 60-day period
beginning on the earlier of—
(i) the end of the period described in paragraph
(5)(A)(i) with respect to any claim against a
depository institution for which the Corporation is
receiver; or
(ii) the date of any notice of disallowance of such
claim pursuant to paragraph (5)(A)(i), the claimant
may request administrative review of the claim in
accordance with subparagraph (A) or (B) of
paragraph (7) or file suit on such claim (or continue
an action commenced before the appointment of the
receiver) in the district or territorial court of the
United States for the district within which the
depository institution's principal place of business is
located or the United States District Court for the
District of Columbia (and such court shall have
jurisdiction to hear such claim).
(B) Statute of limitations. If any claimant fails to—
(i) request administrative review of any claim in
accordance with subparagraph (A) or (B) of
paragraph (7); or

49a
(ii) file suit on such claim (or continue an action
commenced before the appointment of the receiver),
before the end of the 60-day period described in
subparagraph (A), the claim shall be deemed to be
disallowed (other than any portion of such claim
which was allowed by the receiver) as of the end of
such period, such disallowance shall be final, and the
claimant shall have no further rights or remedies
with respect to such claim.

